HHS/OIG-Audit-"Review of Medicare Final Adminitrative Cost Proposals for the period October 1, 1998 through September 30, 2000"(A-09-01-00088)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Medicare Final Administrative Cost Proposals for the period
October 1, 1998 through September 30, 2000," (A-09-01-00088)
January 9, 2002
Complete
Text of Report is available in PDF format (4.3 MB). Copies can also be
obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
We have concluded that $118,199,816 of the $128,100,962 claimed under the
contract is acceptable.  The balance of $9,901,146 represents costs set
aside for pension costs ($801,140), home office indirect costs ($8,568,685),
return on investment ($73,729), and the amount budgeted for forward funding
($457,592).